<html>
<title> - TO AUTHORIZE THE EDWARD BYRNE MEMORIAL JUSTICE ASSISTANT GRANT PROGRAM AT FISCAL YEAR 2006 LEVELS THROUGH 2012</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
TO AUTHORIZE THE EDWARD BYRNE MEMORIAL JUSTICE ASSISTANT GRANT PROGRAM 
                AT FISCAL YEAR 2006 LEVELS THROUGH 2012

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 3546

                               __________

                              MAY 20, 2008

                               __________

                           Serial No. 110-153

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
42-508 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 20, 2008

                                                                   Page

                                THE BILL

H.R. 3546, ``To authorize the Edward Byrne Memorial Justice 
  Assistant Grant Program at fiscal year 2006 levels through 
  2012''.........................................................     3

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     5
The Honorable Hank Johnson, a Representative in Congress from the 
  State of Georgia, and Member, Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................     6

                               WITNESSES

Mr. Domingo S. Herraiz, Director, Bureau of Justice Assistance, 
  United States Department of Justice, Washington, DC
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
The Honorable Dustin McDaniel, National Association of Attorneys 
  General
  Oral Testimony.................................................    16
  Prepared Statement.............................................    22
Mr. James P. Fox, President, National District Attorneys' 
  Association, Alexandria, VA
  Oral Testimony.................................................    28
  Prepared Statement.............................................    29
Sheriff Craig Webre, President, National Sheriffs' Organization, 
  Alexandria, VA
  Oral Testimony.................................................    35
  Prepared Statement.............................................    37
Mr. Ronald C. Rueker, President, International Association of 
  Chiefs of Police, Alexandria, VA
  Oral Testimony.................................................    44
  Prepared Statement.............................................    61
Mr. Ronald E. Brooks, President, National Narcotic Officers' 
  Association Coalition, San Francisco, CA
  Oral Testimony.................................................    69
  Prepared Statement.............................................    92

                                APPENDIX

Material Submitted for the Hearing Record........................   121


TO AUTHORIZE THE EDWARD BYRNE MEMORIAL JUSTICE ASSISTANT GRANT PROGRAM 
                AT FISCAL YEAR 2006 LEVELS THROUGH 2012

                              ----------                              


                         TUESDAY, MAY 20, 2008

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 11:02 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Johnson, Baldwin, Coble, 
and Gohmert.
    Staff present: Marion Dispenza, (Fellow) ATF Detailee; 
Kimani Little, Minority Counsel; and Brandon Johns, Majority 
Staff Assistant.
    Mr. Scott. The Subcommittee will now come to order.
    I am pleased to welcome you today to the hearing before the 
Subcommittee on Crime, Terrorism, and Homeland Security on the 
bill H.R. 3546, ``To authorize the Edward Byrne Memorial 
Justice Assistance Grant Program for fiscal year 2006 levels 
through 2012,'' authored by the gentleman from Georgia, Mr. 
Johnson.
    The Byrne Grant Program, named after Edward Byrne, a New 
York City police officer killed by a violent drug gang 20 years 
ago, is the only source of Federal funding for 
multijurisdictional efforts to prevent and fight crime. The 
Byrne Memorial Justice Assistant Grant, or Byrne/JAG Program, 
allows States and local governments to support a broad range of 
activities to prevent and control crime and to improve the 
criminal justice system which States and local governments have 
come to rely on to ensure public safety.
    The States use Byrne/JAG grants for law enforcement, 
prosecution and court programs, prevention and education, 
corrections and community programs, drug-free planning, 
evaluation, technology improvement programs, and crime victim 
and witness programs. The States use the grants for law 
enforcement and hold those who commit crimes accountable for 
their offenses.
    However, the grants play an integral role in enabling 
States to employ all aspects of fighting crime, rather than 
simply using the so-called get tough approach focusing on 
arrests and increasing sentences. For example, in my home State 
of Virginia, in fiscal year 2007 alone, Byrne/JAG grants 
enabled task forces to reduce violent crime by as much as 20 
percent in targeted areas throughout a multifaceted approach to 
crime.
    Nine different law enforcement regional information-sharing 
networks were established, connecting 85 agencies. The Virginia 
Firearms Transaction Program increased its instant background 
checks for firearm purchases by 50 percent. High school 
students received training in traffic safety, crime prevention, 
and substance abuse.
    In its early years, the Byrne/JAG Program enjoyed 
appropriations that enabled it to work effectively. 
Unfortunately, however, funding has been diminishing over the 
past several years, threatening its ability to function. 
Although Congress authorized over a billion dollars, only $520 
million were appropriated for fiscal year 2007. The 
appropriation was drastically reduced to $170 million for 
fiscal year 2008, and the President has proposed further cuts 
for fiscal year 2009. The reduced funding for fiscal year 2008 
has already threatened the functionality of the programs the 
grants support. Further reductions could put existence to the 
programs in doubt.
    The trend to reduce the programs may result in part from 
instances where Byrne/JAG Program funding has been abused. For 
example, in 1999, Byrne/JAG grant funding was used in the 
infamous Tulia outrage in which a rogue police narcotics 
officer in Texas set up dozens of people, most of them African-
American, in false cocaine-trafficking charges.
    In other instances, jurisdictions used funding to fund task 
forces focused solely on ineffective low-level drug arrests 
which has put the task force concept and the diminishing 
standards for drug enforcement that it has come to represent in 
the national spotlight.
    But reducing funding is not the answer. Instead, we should 
ensure that the funds are being used properly because the 
success of the program far outweighs its failures.
    Nationwide, the grant program has resulted in major 
innovations in crime control, including drug courts, gang 
prevention strategies, prisoner reentry programs, all of which 
provide proven and highly effective crime prevention. These 
innovations have demonstrated that best crime policies 
incorporate programs that help at-risk youth avoid criminal 
behavior and prepare prisoners for reentry into society so that 
they have meaningful and productive alternatives to crime when 
they return home.
    Byrne/JAG Grants are also indispensible resources that 
States use to combat crime, and I urge my colleagues to support 
the reauthorization of the funding.
    [The bill, H.R. 3546, follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Scott. It is now my pleasure to recognize the esteemed 
Ranking Member of the Subcommittee, the gentleman from Texas, 
the Honorable Judge Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    And thank you to my friend, Mr. Johnson, for filing this 
bill for reauthorization. It has done a great deal of good in a 
great number of places.
    And I appreciate the Chairman bringing up a bad example, 
being from Texas.
    In any event, the Edward Byrne Memorial Justice Assistance 
Grant Program allows States and local governments to support a 
broad range of activities to prevent and control crime, to 
improve the criminal justice system.
    The Byrne Justice Assistance Grant Program is named after a 
fallen New York City police officer, Edward Byrne. I am sure 
everyone here was aware of that and that Officer Byrne was 
killed in February 1986 while protecting a witness who had 
agreed to testify in court against local drug dealers.
    The Department of Justice Bureau of Justice Assistance 
administers this program which allocates using a formula based 
on population and crime statistics. The program has a minimum 
allocation to ensure that each State and territory receives an 
appropriate share of the Federal funds.
    There are seven purpose areas that the funding can be used 
for. The areas include law enforcement, prosecution, court 
programs, crime prevention, education programs, correction and 
community correction programs, drug treatment, technology 
improvement programs, and programs to support crime victims and 
witnesses, all of those being very noteworthy.
    Once received, Justice Assistance Grant funds can be used 
to pay for personnel, overtime, and equipment. Funds provided 
to the States are also used for statewide initiatives, 
technical assistance and training, support for local and rural 
jurisdictions.
    The Byrne Justice Assistance Grant Program was preceded by 
the Edward Byrne Memorial State and Local Law Enforcement 
Assistance Program and the Local Law Enforcement Block Grant 
Program, but it is one of the few government programs that have 
been consistently supported by both parties in Congress, and I 
do believe we should continue to do so now.
    My friend Mr. Johnson's bill, H.R. 3546, is a one-sentence 
straight reauthorization of the Byrne Justice Assistance Grant 
Program at fiscal year 2006 levels through 2012, and I would 
submit that it is an example of one member of one party being 
very bipartisan, playing no games, just straightforward, and 
that is greatly appreciated.
    At a time where violent crime and gangs are spreading out 
of America's urban centers to suburban and rural areas, 
Congress should continue to provide our States and cities with 
the funding and equipment they need to effectively enforce the 
law. I am proud to support the reauthorization of the Byrne 
Justice Assistance Grant Programs and would urge my colleagues 
to do so.
    I also appreciate each of you being here. Obviously, you 
have been affected by the Byrne Program, and we just appreciate 
the work that each of you do. Having been a former prosecutor, 
judge, chief justice, I have great appreciation for what each 
of you do, and thank you for going to all the trouble to be 
here today. I know the pay for being a witness is what draws 
most people here.
    In case somebody is watching on C-SPAN, they are not really 
getting paid.
    But that makes it all the more gracious on your part to be 
here, and we thank you for being a part of this.
    Mr. Scott. Thank you.
    Usually, we do not have statements from other Members. We 
ask them to put them in the record, but the author of the bill 
before us is with us, the gentleman from Georgia, and I would 
call on him if he has a brief statement.
    Mr. Johnson. Thank you, Mr. Chairman.
    I applaud you for bringing this matter to this 
Subcommittee, and I want to thank Ranking Member Gohmert for 
his help and his insight into this very critical area.
    Thank you, witnesses, for appearing today.
    H.R. 3546, a bill to reauthorize the Edward Byrne Memorial 
Justice Assistance Grant Program, I introduced last year. This 
law enforcement grant program is the only comprehensive Federal 
program to combat criminal activity within a governmental and 
interstate approach and which provides critical funding to 
State and local law enforcement to fight crimes, as well as to 
assist in the prevention of crimes and drug use, to treat non-
violent offenders, and to improve the effectiveness of 
prosecutors, courts, as well as corrections practices.
    In my home State of Georgia, these grants allow the State 
to maintain a well-trained corps of specialized drug 
enforcement officers in small law enforcement agencies that 
work closely together, allowing for officers to share 
intelligence, coordinate their operations with State and 
Federal agencies, and share resources with State and Federal 
agencies.
    This critical funding supports half of Georgia's counties 
and judicial districts, allowing localities, especially in 
rural districts, to dedicate funding to over 100 special 
agents, commanders, and support staff. Nationwide, Byrne/JAG 
has led to 220,000 arrests, the seizure of 54,000 weapons, the 
destruction of 5.5 million grams of methamphetamine, and the 
elimination of almost 9,000 methamphetamine labs.
    Byrne/JAG has the support of numerous law enforcement 
coalitions, including the International Association of Chiefs 
of Police, the National Sheriffs' Association, and the National 
Narcotics Officers' Association Coalitions.
    But as we discuss how the program has worked effectively 
across the country, we must also discuss some of the problems 
that have led this Administration and some advocacy groups to 
criticize the program; for example, as Judge Gohmert cited, the 
tragic and infamous drug operation in Tulia, Texas, the 
inappropriate use of Byrne/JAG funding for voter fraud 
prosecutions, and the funding of task forces for ineffective 
low-level drug arrests, all of which have certainly tarnished 
the program.
    But slashing funding will only jeopardize the hard work our 
criminal justice community has made in reducing and preventing 
crime in our communities. Fighting crime should not be done in 
a vacuum. There must be a multifaceted approach that includes 
all parties, local law enforcement, prosecutors, courts, 
probation, prisoner reentry programs and, most important, 
prevention to ensure standards and accountability.
    Once again, thank you, Mr. Chairman, for holding this 
hearing. And, as you know, the Senate has already passed this 
bill by a unanimous consent with 52 co-sponsors, and although 
Members of this body and groups alike have concerns about the 
program, I believe we all can work together to ensure 
accountability and standards for this program.
    Thank you very much.
    Mr. Scott. Thank you.
    We have been joined by the gentleman from North Carolina, 
Mr. Coble, and the gentlelady from Wisconsin, Ms. Baldwin, and 
would ask that any further comments be placed in the record. By 
unanimous consent, so ordered.
    We have a distinguished panel of witnesses with us today to 
discuss the bill, H.R. 3546.
    Our first witness will be Domingo Herraiz, the director of 
the Bureau of Justice Assistance, or BJA. BJA supports law 
enforcement, courts, corrections, treatment, victim services, 
technology, and prevention initiatives that strengthen the 
Nation's criminal justice system. He has an undergraduate 
degree from Iowa University and political science and is 
currently working toward the completion of a master's degree in 
public administration from Ohio University.
    Our next witness will be Dustin McDaniel, the attorney 
general for the State of Arkansas, representing the National 
Association of Attorneys General. He has an extensive history 
of public service, including service as a uniformed patrol 
officer in his hometown of Jonesboro, and he was a member of 
the Arkansas House of Representatives. He obtained a bachelor's 
degree from the University of Arkansas and has a law degree 
from the University of Arkansas at Little Rock.
    Our next witness will be Mr. James P. Fox, district 
attorney, San Mateo County, California, and president of the 
National District Attorneys' Association. He is a career 
prosecutor serving as a district attorney since 1982. He 
received both his Bachelor of Science degree in psychology and 
his juris doctorate from the University of San Francisco.
    The next witness will be Sheriff Craig Webre of Lafourche 
Parish, Louisiana, president of the National Sheriffs' 
Association. Prior to his election as sheriff, he served his 
community as an officer with the Thibodaux Police Department 
and as a Louisiana State trooper. He holds a bachelor's degree 
in criminal justice and a juris doctorate from Loyola 
University.
    Our next witness will be Ronald C. Rueker who is the 
director of public safety, City of Sherwood, Oregon, and 
president of the International Association of Chiefs of Police. 
He is a graduate of the FBI National Academy, the FBI's 
National Executive Institute, and the Program for Senior 
Executives in State and Local Government at the John F. Kennedy 
School of Government at Harvard.
    Our final witness will be Ronald E. Brooks, president of 
the National Narcotic Officers' Association Coalition, the 
NNOAC, representing 44 State narcotic officers' associations 
with combined membership of over 60,000 law enforcement 
officers around the Nation. He is a 32-year California law 
enforcement veteran with 24 of those years being in drug, gang, 
and violent crime enforcement. He has been the primary 
investigator, supervisor, or manager for thousands of 
enforcement operations and has written policies and procedures 
for managing undercover operations and for managing informants.
    Now, for the witnesses, each of your written statements 
will be made part of the record in its entirety, and I would 
ask each of you to summarize your statement in 5 minutes or 
less. To help stay within that time, there is a lighting device 
on the table which will start off green, go to yellow, and red 
when 5 minutes are up.
    We will begin with Mr. Herraiz.

 TESTIMONY OF DOMINGO S. HERRAIZ, DIRECTOR, BUREAU OF JUSTICE 
ASSISTANCE, UNITED STATES DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Mr. Herraiz. Chairman Scott, Ranking Member Gohmert, and 
distinguished Members of the Subcommittee, the Department of 
Justice appreciates the opportunity to testify today regarding 
the Edward Byrne Memorial Justice Assistance Program, the 
Byrne/JAG Program. My name is Domingo Herraiz, and I am the 
director of the Bureau of Justice Assistance.
    As was mentioned, BJA supports law enforcement, courts, 
correction, treatment, technology, and prevention initiatives 
that strengthen the Nation's criminal justice system. We 
emphasize local control, building relationships in the field, 
providing training and technical assistance, developing 
collaborations and partnerships, streamlining of grants, 
encouraging innovation, and communicating the value of justice 
efforts.
    BJA is committed to providing law enforcement and justice 
partners with the tools to perform their jobs and make 
America's communities safer. We recognize spending challenges 
and the need to identify an approach that allows for 
flexibility in meeting our Nation's law enforcement needs and 
the ability to adapt to ever-changing crime concerns.
    To meet these challenges, the department has focused on 
targeting resources to the areas with the greatest need where 
they can do the most good. The President's fiscal year 2009 
budget request for more than $1 billion would tackle the 
Nation's most pressing needs and support top priority 
initiatives.
    One of the most significant changes proposed by the 
President's budget is the reorganization and consolidation of 
more than 70 existing grant programs into four multiple-purpose 
programs: the Violent Crime Reduction Partnership Initiative; 
the Byrne Public Safety and Protection Program; the Child 
Safety and Juvenile Program; and the Violence Against Women 
grants. These new discretionary grants would award funding 
through a highly competitive grant program.
    My testimony today is focus on two of these initiatives, 
the Violent Crime Reduction Partnership Initiative and the 
Byrne Public Safety and Protection Program.
    Between 1993 and 2005, the violent crime victimization rate 
declined nearly 60 percent and the property crime victimization 
rates declined by more than 50 percent. While the recent FBI 
Uniform Crime Report data shows fluctuation in rates, the 
violent crime rate during this Administration is still well 
below historic levels. Preliminary FBI data also point to a 
decline in violent crime for the first half of 2007.
    Despite these positive trends, challenges still exist. Some 
regions and communities continue to experience increases in 
violent crimes. As Attorney General Mukasey recently said, 
``The nature of crime varies not only from one city to another, 
but even from one block to the next. So it is at the block 
level that much of our work has to happen.''
    The department is following through on the attorney 
general's commitment to assist State, local, and tribal 
governments by working with our partners to identify problems 
and develop meaningful strategies to reduce and deter crime. 
One outcome of this effort is the Violent Reduction Partnership 
Initiative based on the department's experience administering 
the Byrne/JAG Program.
    The President's initiative seeks $200 million to build on 
the most successful aspects of the Byrne/JAG Program to help 
communities address high crime rates of violent crime by 
developing multijurisdictional law enforcement partnerships 
among State, local, tribal, and Federal agencies. These 
partnerships are designed to disrupt and prevent criminal gang, 
firearm, and drug activities.
    With discretionary funds provided by Congress in fiscal 
year 2007, we demonstrated this approach with a competitive 
solicitation to fund task force activities, refine task force 
activities, with focused strategies, including intelligence 
that led policing to address specific crime problems. Last 
fall, BJA awarded more than $75 million to 106 sites in 37 
States through this program. With the resources sought by the 
President's larger budget request of $200 million, we can 
expand the success and better assist communities as they reduce 
and prevent violent crime.
    This year, the President's budget proposal includes $200 
million for a streamlined grant program that would combine the 
funding streams of several programs into the new Byrne Public 
Safety and Protection Program. This program consolidates the 
Office of Justice Program's most effective State and local law 
enforcement programs into a single, flexible, competitive 
discretionary grant program for communities to develop 
solutions based on their priority crime concerns.
    Mr. Chairman, the fiscal year 2009 budget proposal would 
enable the department to continue to work with our State, 
local, and tribal partners to effectively target Federal 
assistance to areas with the greatest need. Our goal is to 
provide communities with the opportunity to decide for 
themselves how to fight the problems they are facing to support 
their most critical law enforcement needs.
    Law enforcement officers are the country's front line in 
the fight against crime. They perform dangerous jobs with 
courage and skill. BJA is committed to working alongside law 
enforcement and justice partners to provide the best practices 
and tools to ultimately strengthen the criminal justice system.
    Mr. Chairman, thank you again for the opportunity to 
testify today. I am happy to address any questions you or other 
Members of the Subcommittee may have.
    [The prepared statement of Mr. Herraiz follows:]

         Prepared Statement of the Honorable Domingo S. Herraiz

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Mr. McDaniel?

     TESTIMONY OF THE HONORABLE DUSTIN McDANIEL, NATIONAL 
                ASSOCIATION OF ATTORNEYS GENERAL

    Mr. McDaniel. Good morning and thank you, Chairman Scott, 
Congressman Gohmert, and other Members of the Committee for 
giving me the opportunity to be here today.
    I also thank you, Congressman Johnson, for authoring this 
important legislation.
    My name is Dustin McDaniel, and I am the attorney general 
for the State of Arkansas, and I am here today on behalf of the 
National Association of Attorneys General, NAAG.
    NAAG and each of its individual members across the country 
strongly urges the reauthorization of the Edward Byrne Memorial 
Justice Assistant Grant Program. The Nation's attorneys general 
believe that full funding is critical to State and local law 
enforcement's ability to maintain public safety as evidenced by 
a March 2008 letter to Congress from all 56 association 
members, and if it would please the Chairman, I would like to 
have a copy of that letter from the 56 attorneys general 
incorporated into the record as evidence of our strong 
commitment to this program.
    Mr. Scott. Without objection, so ordered.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. McDaniel. One of the reasons the attorneys general 
believe that Byrne/JAG funding is of paramount importance is 
that the most crime prevention efforts occur at the State and 
local level. Homeland security begins at home. But with State 
budgets under increasing financial strain, the job is becoming 
ever more difficult.
    Byrne/JAG has played a role in supporting Arkansas' 
regional drug task forces. In fact, our 19 drug task forces are 
the primary location for the spending of our State's Byrne/JAG 
monies. As the Chairman indicated, like any multijurisdictional 
enterprise, there have been growing pains felt in the 
implementation of these drug task forces. However, State 
statutes, local law enforcement techniques, and other 
evolutions have led to more efficiencies and better effective 
programs.
    I agree with you, Congressman Johnson, supervision and 
accountability is the answer rather than cutting this funding.
    According to prosecutors in Arkansas, last year, nearly 70 
percent of Arkansas' crime lab drug submissions were submitted 
by our State drug task forces. The current multijurisdictional 
drug task force concept is, in fact, more efficient fiscally 
and produces better arrests and prosecutions than any other 
model.
    However, when funding was cut by 67 percent in fiscal year 
2008, law enforcement agencies across the country were forced 
to shut down drug and gang task forces and cease funding 
effective programs.
    According to Attorney General J.B. Van Hollen of Wisconsin, 
funding cuts there projected the loss of more than 21 
prosecutors in that State alone. Primarily, those losses were 
felt in the State's highest crime areas. Milwaukee County 
alone, the largest prosecutorial unit in Wisconsin, will lose 
10 percent of its entire prosecutorial staff.
    I believe that failing to reauthorize and fully fund Byrne/
JAG is a step in the wrong direction and will leave a void that 
can only be filled by those who wish to do harm in our 
communities. In Arkansas, for example, if one compares drug 
task force related statistics from 2004 when Byrne/JAG funding 
was higher to 2007 when it was at its lowest, the results are 
grim.
    Since 2004, Arkansas has experienced a 35 percent reduction 
in the number of cases filed by drug task forces and a 41 
percent reduction in the number of arrests made by drug task 
forces. This occurs at the exact same time that methamphetamine 
has become an epidemic. Once limited to Southwestern Pacific 
states, it has taken hold of the entire country, especially in 
rural America.
    Byrne/JAG funding cuts not only impact local law 
enforcement, but they have also hampered a coordinated effort 
by law enforcement at all levels of government to seize drugs 
and prevent drug-related crime. Each year, Byrne/JAG funds more 
than 4,000 police officers and prosecutors working on more than 
750 drug task forces across hundreds of urban and rural 
counties and cities in all 50 States. This funding has led to 
more than 22,000 arrests, 54,000 seized weapons, 5.5 million 
grams of methamphetamine, and the breakup of almost 9,000 
methamphetamine labs annually.
    The successes of the program are clear, the failures of the 
program can be addressed, and I hope that Congress and the 
Administration will renew their commitment to fighting crime 
and protecting our communities by reauthorizing and adequately 
funding this critical program.
    Thank you again for allowing me to testify before the 
Committee.
    [The prepared statement of Mr. McDaniel follows:]

          Prepared Statement of the Honorable Dustin McDaniel

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Mr. McDaniel.
    Mr. Fox?

    TESTIMONY OF JAMES P. FOX, PRESIDENT, NATIONAL DISTRICT 
             ATTORNEYS' ASSOCIATION, ALEXANDRIA, VA

    Mr. Fox. Thank you, Chairman Scott, Ranking Member Gohmert, 
Members of the Committee.
    My name is James Fox. I am the district attorney of San 
Mateo County, California, and the president of the National 
District Attorneys' Association.
    San Mateo County in 1984 recognized the value of a 
multijurisdictional task force, and we did create the San Mateo 
County Narcotics Task Force which to this day continues. It was 
a combined effort for all 20 cities in our county. Our members 
have a joint powers agreement that has been very, very 
successful, and, in fact, just last night, our task force was 
involved in the seizure of over a pound of methamphetamine.
    Unfortunately, methamphetamine is an export from 
California. We are a source State, and that is not something 
that we are proud of, but it, unfortunately, is a fact.
    Prosecutors throughout the country have difficulties in 
being able to adequately train people. The Byrne/JAG money has 
been utilized in a number of the States for training of 
prosecution as well as law enforcement officers, and I think 
that increased training is something that would go a long way 
toward addressing the potential abuses of narcotics enforcement 
because I think that it is rare, but it is definitely important 
that we receive the resources for the training.
    In the State of Pennsylvania, the State prosecutors are 
solely dependent upon Byrne/JAG funding for the training of the 
prosecutors in that State. Tennessee--Shelby County, Memphis, 
Tennessee--the prosecutor in that county has utilized the 
Byrne/JAG funding to create an anti-truancy program to try to 
address quality of life and to try to basically do community 
prosecution. That program would be seriously jeopardized with 
the reduction that has been proposed.
    In Hawaii, the Honolulu district attorney also has a 
community prosecution program that is solely dependent upon 
Byrne/JAG funding.
    Virginia, prosecutors are dependent upon the funding from 
Byrne/JAG for limited training that the State prosecutors do 
receive.
    Unfortunately, from the prosecutor's perspective, we have a 
problem in recruiting and retaining young prosecuting attorneys 
because education costs have gone up, young people cannot 
afford to go into public service, and as a result, there is a 
very, very high turnover for prosecution. That has created a 
burden upon adequate training for prosecutors.
    So it is absolutely imperative that adequate resources be 
provided to continue the great efforts that had been 
implemented since the creation of the Byrne/JAG funding. 
Obviously, we know that there have been pressures to reduce, 
and we are hopeful that there will be some supplemental 
appropriations this year because there are programs that, 
unfortunately, are going to disappear.
    Frankly, I think that it would be tragic because, as was 
said earlier, homeland security begins at home, and we are 
solely dependent in many areas, especially in the smaller 
jurisdictions, on this funding.
    On behalf of our Nation's prosecutors, I would like to 
thank the Subcommittee for the opportunity to share my views on 
the Byrne/JAG funding program, and I would urge the 
Subcommittee to take the necessary steps to ensure the 
authorization of Edward Byrne Memorial Justice Assistance 
Grants at fiscal year 2006 levels through fiscal year 2012.
    Thank you very much.
    [The prepared statement of Mr. Fox follows:]

                   Prepared Statement of James P. Fox

                              INTRODUCTION

    Chairman Scott, Ranking Member Gohmert and Members of the 
Subcommittee: My name is James P. Fox and I am the elected district 
attorney in San Mateo County, California and have served in this 
capacity for approximately twenty-six years.
    I have been involved in the criminal justice system for forty-one 
years in a variety of positions including juvenile probation, deputy 
district attorney, criminal defense attorney and elected district 
attorney in 1982. I am a past President of the California District 
Attorneys Association and have been a chairman of the Legislative 
Committee of the California District Attorneys Association since 1990.
    I would like to extend my sincere thanks to the Subcommittee for 
the invitation to testify today. I appreciate the opportunity to share 
my thoughts and concerns as well as those of my colleagues regarding 
the successes of the Byrne-JAG program and the probable consequences of 
continued reductions in program funding.
    Currently I serve as the President of the National District 
Attorneys Association (NDAA). NDAA is the largest and primary 
professional association of prosecuting attorneys in the United States. 
Formed in 1950 as the ``National Association of County and Prosecuting 
Attorneys'' and given its present name in 1959, NDAA has approximately 
7,000 members, including most of the nation's local prosecutors, in 
addition to, assistant prosecutors, investigators, victim witness 
advocates and paralegals. The National District Attorneys Association 
provides professional guidance and support to its members, serves as a 
resource and education center, follows public policy issues involving 
criminal justice and law enforcement, and produces a number of 
publications.
    As a representative of the nation's prosecutors and other criminal 
justice professionals, I am here today to discuss the detrimental 
impact of reductions to Byrne-JAG funding and to urge this subcommittee 
to do what is necessary to make certain that the program is authorized 
at the FY 2006 level ($1.095 billion) through Fiscal Year 2012. The 
FY08 omnibus appropriations bill cut the Byrne Justice Assistance Grant 
(Byrne/JAG) program by 67%, from $520 million in FY07 to $170 million 
in FY08.
    The Byrne-JAG program is the only comprehensive federal program to 
combat criminal activity with an intergovernmental and interstate 
approach, allowing for increased effectiveness in the responsiveness of 
the criminal justice system to the development of proactive approaches 
to interstate and multi-jurisdictional crime. It allows for a true 
system-wide approach, enabling communities to target resources to their 
most pressing local needs. It has been particularly critical for the 
prosecutorial community. Prosecutors across the nation rely on this 
funding for the training of prosecutors and law enforcement personnel; 
the dedication of prosecutors to task forces and investigation teams; 
the development and implementation of crime prevention programs and the 
creation of innovative programs to reduce recidivism rates. In fact, 
the Byrne-JAG program is in many instances the only source of funding 
to support critical multi-jurisdictional task forces and 
multidisciplinary teams.
    If funding for the Byrne-JAG program remains at the reduced FY08 
level, prosecutors across the country will lose vital training, 
investigative tools, personnel and physical resources, the ability to 
effectively collaborate with other jurisdictions, states and levels of 
government, and the ability to engage in successful crime prevention 
efforts.

  IMPACT OF CONTINUED FUNDING REDUCTIONS IN THE EDWARD BYRNE MEMORIAL 
                       JUSTICE ASSISTANCE GRANTS

                               CALIFORNIA

    In my home state of California continued reductions to the Byrne 
Justice Assistance Grants program will have a devastating impact on the 
investigation and prosecution of drug trafficking and various other 
crimes. A survey of county-specific programs illustrates the importance 
of this federal funding.
Stanislaus County
    The Stanislaus County Drug Enforcement Agency has been an active, 
successful anti-drug abuse (ADA) task force in existence for more than 
34 years. They operate under a supportive Governing Board comprised of 
all the law enforcement leaders in the community and have participation 
from every city agency in the county, along with the Sheriff's 
Department, District Attorney's Office, and Probation Department. As a 
result of this support and commitment to a safer community through drug 
suppression efforts, the Stanislaus task force has remained operational 
despite numerous reductions in grant funding over the past several 
years.
    During the past five years the county has experienced fluctuations 
in OES Byrne Grant (JAG funding) with decreases in excess of 50%. These 
reductions resulted in the loss of critical investigator positions on 
the task force. Further loss of personnel will have a negative impact 
on operations and could limit the task force's ability to conduct some 
large-scale investigations. These investigations are a critical 
component in successfully investigating and identifying DTO's (Drug 
Trafficking Organizations). This will jeopardize the Stanislaus ADA's 
success in controlling and eliminating the major drug trafficking 
organizations responsible for the methamphetamine epidemic throughout 
Stanislaus County and across the nation.
    This essential funding has contributed to recent successes of the 
anti drug abuse task forces. Early this month after a comprehensive 
investigation and weeks of surveillance, a methamphetamine super lab 
was located. Approximately 200 gallons of methamphetamine in solution 
with an estimated street value of over four million dollars were 
seized, in addition to firearms. Over the past six months the ADA has 
arrested several associates of a well known multi-generational drug 
trafficking organization.
    In order for the Stanislaus ADA Enforcement Program to continue 
operating at the same level of sophistication and success, it is 
essential that the Byrne Grant program be funded at adequate levels. It 
is a constant challenge to conduct investigations, which maintain a 
higher level of sophistication/intelligence than that of the drug 
trafficking organizations. With a decrease in funding, resulting in a 
reduction of personnel, the county's investigative abilities will be 
diminished.
Santa Barbara County
    Santa Barbara County has for many years used these funds as the 
primary funding source for a county-wide narcotics task force. This 
unit is staffed by officers from law enforcement agencies in the 
various jurisdictions. Their mission is to target the major offenders, 
and work in a united effort to benefit the county as a whole. It has 
been quite successful in the past, but with the decreases in funding 
the entire program may be in jeopardy. This task force along with other 
agencies was responsible for implementing the DEC, or drug endangered 
children, program that has served to focus on the children victims of 
drug trafficking and abuse. If the funds are further decreased Santa 
Barbara County may have to eliminate the work of the entire task force. 
Historically, disbanded task forces are found to be extremely difficult 
to reassemble in the future when funding is increased.
Santa Clara County
    Santa Clara County has two multi-jurisdictional investigative task 
forces funded with Byrne-JAG grants: the Unified Narcotic Enforcement 
Team (UNET) and the Santa Clara County Specialized Enforcement Team 
(SCCSET). Nearly every law enforcement agency in Santa Clara and San 
Benito Counties has law enforcement agents assigned to one of these 
units. A major crimes regional task force, the South Bay METRO, also 
operates in both these counties and others, including San Mateo County. 
The work of these tasks forces and teams significantly reduces the 
amount of illegal drugs on the county's streets and aids in the capture 
of regional and local drug traffickers.
    These task forces have been doing an excellent job and for smaller 
local agencies it is the only way they can receive the quality 
assistance they need in order to make major drug busts. They facilitate 
the transfer of information across and between local, state and federal 
jurisdictions and the sharing of best practices among the participating 
agencies. Between January 2007 and February 2008, the task forces have 
seized 15\1/2\ pounds of methamphetamine with a street value of over 
$750,000.00, 5\1/2\ pounds of cocaine ($199,000.00), \1/2\ pound of tar 
heroin ($20,000.00) and 318 dosage units of MDMA (Ecstasy at 10 to 15 
dollars per tablet). At least six of these investigations had direct 
ties to organized crime groups, such as Nuestra Familia, South 
Vietnamese Gangsters and MS-13. SCCSET also initiated a murder for hire 
investigation, which resulted in an arrest and conviction of the 
perpetrator and prevented a homicide.
    If Byrne-JAG funds are reduced, it is estimated that these task 
forces will be cut by a minimum of 67% severely crippling their ability 
to effectively operate. Law enforcement cannot conduct investigations 
without funding. The local agencies do not have the manpower or the 
resources to tackle these problems on their own. The collaborative work 
must continue and this will in turn reduce the amount of drugs on our 
streets.
San Bernardino County
    In San Bernardino County the Byrne/JAG funds are used to offset 
designated Street Enforcement and Marijuana Suppression deputy district 
attorneys. Continued reductions in the Byrne-JAG funding will require 
that the department's budget de-fund other positions.
Ventura County
    Ventura County is fast becoming a supply and distribution point of 
narcotics for much of the state, as well as the western region (i.e., 
Oregon, Washington, and Nevada).
    During this past year the Ventura County Combined Agency Team 
(VCAT) noticed an increase in outside agencies conducting narcotic 
investigations that have led them directly to Ventura County. There 
have been several occasions where agencies from Los Angeles (LA 
Impact), Orange County (RSNP), San Bernardino (IRNET), San Diego 
(Southwest Border HIDTA), and even San Jose (DEA) have contacted 
investigators in order to advise them that their investigations have 
ties to Ventura County. Many of these investigations have resulted in 
the arrests of members belonging to Drug Trafficking Organizations 
(DTOs), the seizures of narcotics, and the forfeiture of proceeds from 
these DTOs. Many of the Ventura County investigations have led 
investigators out of Ventura County and back to these same 
jurisdictions, i.e., Los Angeles, Orange and San Bernardino counties. 
In addition, investigations originating in Ventura County have led 
investigators directly to the source of supply in Baja California 
(Tijuana) and as far north as the state of Washington.
    VCATs primary goal has always been to reduce the impact of illicit 
drugs within Ventura County. Using a multi-jurisdictional collaborative 
approach (i.e., VCAT Task Force) has resulted in a great deal of 
success. For example, within the last few months VCAT has seized over 
50 pounds of methamphetamine, 20 kilos of cocaine, 130 pounds of tar 
heroin, and hundreds of thousands of dollars in narcotic proceeds.
    Continued reductions in Byrne JAG funding, coupled with previous 
years reductions, would significantly impact the county's ability to 
carry out the types of investigations that are currently being 
conducting. The expectant result of a reduction in funding would not 
only impact the narcotic task force and local law enforcement agencies, 
but more importantly, would no doubt create a concomitant effect 
resulting in an increase of drugs and crime in communities, counties, 
states and nation.
    Cuts to the funding such as that which occurred in FY 2008 could 
potentially shut down the task force in Ventura County. At the very 
least, in order to save any investigative positions all ancillary 
expenses would need to be eliminated. This would include such things as 
training, equipment purchases, investigative costs, administrative 
costs, e.g., office space, copy machines, telephones, etc. In addition, 
severe cuts would need to be made to overtime, which would impact the 
quality and outcome of investigations.
    With respect to the elimination of training and equipment, the loss 
of funding in each of these areas would have a catastrophic effect on 
the task force. Training is used to enhance investigators' knowledge, 
skills, and abilities. Training provides a source of networking where 
investigators often meet and discuss the latest DTO trends, case law, 
threats, and the newest types of surveillance equipment necessary to 
stay current in the field. Many of the investigations involve the use 
of cutting edge technology in order to keep pace with the drug 
trafficking organizations. Without adequate funding and training the 
task force could not initiate the types of investigations currently 
being conducted, but instead would be relegated to working street 
drugs, which has a minimal, if any impact at all on drug trafficking 
organizations.
Alameda County
    In Alameda County the funds from the Byrne JAG program pay for all 
expenses (with the exception of police salaries) for the Alameda County 
Narcotics Task Force. In addition, the funding covers the costs 
associated with dedicating a prosecutor to the task force. Without this 
funding the District Attorney, due to staffing concerns, would be 
unable to assign a prosecutor to the task force. If the reductions 
continue the task force may have to be disbanded. This is the only unit 
in Alameda County that focuses on midlevel and upper level narcotics 
traffickers. In Yuba County a prosecutor is also dedicated to the 
narcotics task force and is in a similar situation as Byrne JAG funds 
are reduced.

                              II. ALABAMA

4th Judicial Circuit
    Alabama's 4th Judicial Circuit Drug Task Force is funded by the 
Byrne-JAG program. The 4th Judicial Circuit covers the largest 
geographical area of any other circuit in the State of Alabama. The 
total project cost for FY 2008 is currently set at $306,113.45. The 
state has requested $153,056.72 in Byrne-JAG funds to support this task 
force.
    The Drug Task Force has made a tremendous impact on the drug trade 
in Alabama's 4th Circuit. The number of violent crimes related to drug 
activity is down substantially. This is attributed to the focus by law 
enforcement on the leaders of the narcotics community, the increased 
quality of investigative skills and improved case preparation. 
Prosecutors in the state have learned through various reliable and 
confidential informants that individuals in the narcotics trade fear 
the abilities of the Task Force to operate and make quality cases that 
send drug dealers to the state and federal penitentiaries for long 
periods of time.
    The 4th Circuit of Alabama would be adversely affected if the Drug 
Task Force is eliminated, and without Byrne-JAG assistance, this 
program would go without sufficient funding, ultimately requiring 
dissolution of the task force. Drug dealers will return to operating 
openly, without the fear of being apprehended.

                              III. ARIZONA

    In Arizona, the Arizona Criminal Justice Commission allocates 
Byrne-JAG funding according to a statewide strategy that also 
incorporates state and local dollars to maximize the use of public 
dollars to combat drugs, gangs and violent crime. Together these funds 
financed 16 narcotics task forces; 15 tandem prosecution programs; 
funding to courts to correspond with the increased caseload; funding to 
the state and municipal crime labs to assist with lab work for drug 
analysis and other related costs; and funding for criminal history 
records improvement projects. These programs resulted in the seizure of 
more than 350,000 pounds of illicit drugs; the discovery and 
dismantling of 16 methamphetamine labs; and the arrest of 5,220 drug 
offenders.
    Due to cuts in Byrne-JAG funding, Arizona's state-funded programs 
expect to see a decrease from $5.6 million in FY07 to an estimated $1.7 
million in FY08. Additionally, the state of Arizona is in fiscal crisis 
as the state legislature is trying to counter a $1 billion shortfall in 
revenue. Subsequently, state dollars distributed with Byrne/JAG funds 
under a state-wide strategic plan are at risk of being swept into the 
general fund by the legislature, further crippling the state's enhanced 
drug and gang enforcement program. In Pima County, AZ, budget cuts to 
the Byrne-JAG Grants directly translate to personnel cuts representing 
one full time attorney position and one team in the narcotics unit 
comprised of two attorney positions, one paralegal position and one 
legal secretary position. The current level of staffing is inadequate 
with attorneys carrying unacceptably high case loads. Further 
reductions in staffing levels will result in increases in attorney 
caseloads and a negative impact on the time required to dispose of 
felony cases.
    The U.S. DEA has recognized Arizona as one of the most active drug 
trafficking corridors in the United States. Given the reduction of the 
Byrne and JAG funding over the past four years, the Byrne and JAG 
programs will be reduced to the point of no longer offering effective 
support. The loss of Byrne funding would result in dismantling of 
several rural task forces, leaving tens of thousands of miles without 
coordinated narcotics intervention efforts. Given Arizona's unwanted 
role as a major trafficking corridor for narcotics smuggled from 
international origins, the loss of these task forces have implications 
nationally, not just for Arizona.

                               IV. HAWAII

Honolulu City & County
    The Office of the Prosecuting Attorney (City and County of 
Honolulu) utilizes Justice Assistance Grants for the Community 
Prosecution Program and the Drug Court Initiative, programs that assist 
with both the prevention of crime and the reduction of recidivism rates 
in this community. Both of these programs have been recognized by the 
Bureau of Justice Assistance as programs that are effective in 
addressing the quality of life issues associated with communities and 
in giving first time drug offenders an alternative to incarceration. 
The JAG grant funds a prosecutor in each of these areas to spearhead 
the programs.
    The Honolulu Community Prosecution's contributions to the 
advancement of justice in the community has been nationally recognized 
with a 2005 Coordination Honor Award (Truancy Sweeps), 2004 
Coordination Honor Award (Weed and Seed Court), 2003Honorable Mention 
Award (Waipahu Juvenile Task Force), and 2000 Judge C. Nils Tavares 
Award (for departmental systemic improvements, including community 
prosecution). In 2007, Honolulu joined forces with other jurisdictions 
on the NCJFCJ Methamphetamine Project in battling the spread of 
methamphetamine houses across rural America.
    The Community Prosecution program remains a key partner in the 
Methamphetamine Abatement Project sponsored by (NCJFCJ), addressing 
concerns of the Oahu Neighborhood Boards, participating in the Youth 
Violence Prevention Initiative of the D.O.E., in accomplishing the 
mission of the federal Weed and Seed Program, in being a presence 
around the table to discuss Drug Endangered Children, ensuring the 
media receives accurate information about Community Prosecution 
campaigns, presenting the Community Prosecution program to community 
groups and providing interagency training sessions for other community 
prosecution partners.
    The Justice Assistance Grant funds used in support of the Drug 
Court assist in the reduction of recidivism rates in the community. 
Since the inception of Drug Court in 1996, 738 defendants have been 
served. Of that number, 453 clients have graduated and only 57 have 
been convicted of new criminal offenses (26 misdemenaors/31 felony 
convictions). The current recidivism rate is 12.6%.
    The loss of Justice Assistance Grant monies would seriously imperil 
the Office of the Prosecuting Attorney's ability to sustain the 
successful Community Prosecution program and Drug Court Initiatives.

                            V. MASSACHUSETTS

    In the last four years alone, the Massachusetts District Attorneys 
and the Massachusetts District Attorneys Association have received more 
than $2,500,000 in Byrne-JAG funding for initiatives to promote 
Internet safety, address drug crimes (heroin, oxycontin, 
methamphetamine), fund apprehension teams for violent fugitives, 
address underage drinking, and purchase technology hardware and 
software to link police and district attorney case management systems.

                              VI. NEW YORK

King County
    The King County District Attorney's Office (KCDA) in New York 
currently receives five separate Byrne grants totaling approximately 
$1.5 million. These funds are used in not only the investigation and 
prosecution of narcotics and gang-related criminal enterprises, but in 
the prosecution of domestic violence cases. Additionally, these funds 
are used for innovative offender reentry programs like the Drug 
Treatment Alternatives-to-Prison program, the nation's first 
prosecution-ruin program to divert prison-bound felony offenders to 
residential drug treatment.
    Recently, an investigation funded, in part by a Byrne grant, made 
national headlines. These funds were instrumental in KCDA's Operation 
Final Voyage, an investigation that uncovered an international cocaine 
smuggling operation between Panama and the port of New York using 
container ships. This operation resulted in the seizure of cocaine with 
a street value of $10 million, the indictment of seven Panamanian 
nationals, and the dismantling of an operation that hoped to supply 
cocaine to drug dealers throughout the east coast of the United States.

                           VII. PENNSYLVANIA

    The Pennsylvania District Attorneys Institute (PDAI) received 
$469,035 in Byrne-JAG funding in FY 2007. Most of this funding is used 
by the Institute to conduct statewide training of prosecutors and law 
enforcement personnel. In fact, the PDAI is the only source of 
accredited in-state training for Pennsylvania's 67 district attorneys. 
This training is critical to most Pennsylvania counties which are 
predominantly rural jurisdictions with small prosecutor offices lacking 
in the necessary resources to provide their own training. While 
prosecutors could participate in training sponsored by the Pennsylvania 
Bar Institute, the cost of this training is typically triple that of 
the PDAI; often geared toward defense counsel; and lacks the prosecutor 
networking and interactive component that is found in PDAI trainings.
    The loss of this funding would devastate PDAI--the Byrne-JAG 
funding received in FY 2007 covered 50% of payroll, benefits, and 
overhead for both the PDAI and the Pennsylvania District Attorneys 
Association. Personnel who work primarily on training courses for the 
Institute are compensated almost entirely by the Byrne-JAG program. If 
Byrne-JAG funding is lost or continues to languish, lay-offs and sale 
of realty would become a necessity. The development of well trained 
prosecutors and law enforcement personnel will become impossible not 
only in Pennsylvania but across the nation if these funds continue to 
be reduced or cut entirely.

                            VIII. TENNESSEE

Shelby County
    A good example of the use of Byrne-JAG funding for prevention 
purposes is a community outreach program being used in Shelby Count 
(Memphis). The District Attorney in this county dedicates one staff 
member (special assistant) to this program which educates the county 
school students and citizens about the severe consequences of violent 
crimes committed with guns and the dangers of both gangs and drugs.
    The ``Do The Right Thing Challenge'' implemented in Memphis City 
and Shelby County schools is an initiative of the National Campaign to 
Stop Violence, a non-profit organization, composed of business, 
community and governmental leaders who have come together to reduce 
youth violence in communities across America. A reduction in homicides 
with firearms is in part attributable to the community outreach work 
done by this special assistant. Additionally, the special assistant is 
responsible for managing the Mentoring Based Truancy Reduction Program 
for the District Attorney's Office. Five Memphis City schools 
participate in the Mentoring Program. In lieu of prosecuting truant 
students, the District Attorney's Office matches qualified mentors with 
the truant students. The mentoring program has shown success with the 
mentored students by their increased school attendance and 
participation in various community activities with their mentors. The 
lack of funding for this special assistant position would have a 
drastic effect on the community. Without JAG funding, the truancy 
program will not have a manager, causing the program to slow or even 
cease. The strong message from the District Attorney's Office about the 
consequences of violent crimes committed with guns, and the dangers of 
gangs and drugs will unfortunately no longer be communicated to the 
community.

                              IX. VIRGINIA

    The state of Virginia has received $58,278 of Byrne-JAG funding 
annually, which has allowed the implementation of critical training 
programs for prosecutors, which, otherwise, the state would not have 
had the resources to fund. This funding has and will support drug 
prosecution training for 20 prosecutors and 20 law enforcement officers 
each year from 2006-2009. The Drug Prosecution program trains 
prosecutors and law enforcement to work as teams to more efficiently 
and effectively prosecute narcotics violations. Additionally, Byrne-JAG 
funding provides the state with the ability to annually train 40 
prosecutor and law enforcement officer teams in the latest techniques 
to prosecute homicide cases. These programs have been met with 
significant praise by attendees and have been found to provide much 
needed guidance for prosecutors and law enforcement officers as they 
work together to ensure Virginia's communities are crime-free.
    The loss of Byrne-JAG funding would put a halt to these trainings 
in Virginia, which have proven so valuable to prosecutors and law 
enforcement throughout the state, ultimately stifling their ability to 
ensure public safety in Virginia's communities.

                              X. WISCONSIN

Anoka County
    With Byrne-JAG funding, Anoka County has dedicated a prosecutor to 
the county drug task force. The county has found that direct 
interaction between prosecutors and drug task force members, results in 
successful drug prosecutions which constitute about one third of the 
county's caseload. The county has received $49,400 annually in Byrne-
JAG funding to finance this task force.
    If Byrne-JAG funding is eliminated, there will be less of an 
emphasis on drug prosecutions and a loss of direct contact with 
prosecutors during the investigation of drug cases.

                               CONCLUSION

    On behalf of the nation's prosecutors, I would like to thank the 
Subcommittee for the opportunity to share my views on the Byrne-JAG 
program and I would urge the Subcommittee to take the necessary steps 
to ensure the authorization of Edward Byrne Memorial Justice Assistance 
Grants at the FY 2006 levels ($1.095 billion) through Fiscal Year 2012.

    Mr. Scott. Thank you, Mr. Fox.
    Sheriff Webre?

TESTIMONY OF SHERIFF CRAIG WEBRE, PRESIDENT, NATIONAL SHERIFFS' 
                  ORGANIZATION, ALEXANDRIA, VA

    Sheriff Webre. Good morning, Mr. Chairman and Members of 
the Committee.
    My name is Craig Webre. I am the sheriff of Lafourche 
Parish, Louisiana, and president of the National Sheriffs' 
Association, representing over 3,000 elected sheriffs and more 
than 22,000 law enforcement professionals. I appear before you 
today to discuss the necessity for Byrne/JAG among State and 
local law enforcement agencies and the urgent need to 
reauthorize funding levels through fiscal year 2012.
    Sheriffs play a unique role in the criminal justice system. 
Beyond providing traditional policing services, sheriffs also 
manage local jails and often provide court security. Over 99 
percent of the sheriffs are elected and, oftentimes, serve as 
the chief law enforcement officers of their counties, giving us 
a keen understanding of the needs of the criminal justice 
system in the local communities we serve.
    The purpose of Byrne/JAG is to assist State and local law 
enforcement in combating crime in their communities. Primarily, 
this task has been accomplished through the establishment of 
multijurisdictional drug and gang task forces. Additionally, 
Byrne/JAG funding has been used for community crime prevention 
programs, substance abuse treatment programs, prosecutorial 
initiatives, and many other local crime control and prevention 
programs.
    Over the last several years, we have seen dramatic 
decreases in Byrne/JAG funding from a high of nearly $900 
million in fiscal year 2003 to $170 million in fiscal year 
2008. The funding cut in fiscal year 2008 Omnibus bill, a 67 
percent decrease, represents the most significant funding cut 
to drug-fighting initiatives in the last 25 years. This will 
result in as many as half of the longstanding 
multijurisdictional drug task forces shutting down as of July 1 
of this year, and the remaining task forces will face 
significantly reduced operational effectiveness.
    Gangs, drug dealers, and other violent criminals are 
certain to regain a stronghold in the area of narcotics 
trafficking and distribution. Moreover, the inability to 
sustain drug task forces will lead to the loss of veteran 
members possessing years of institutional knowledge, the loss 
of intelligence databases, and the loss of informants.
    The drastic reduction of Byrne/JAG, and other essential 
programs, such as COPS, places an insurmountable burden upon 
State and local law enforcement. As funding for law enforcement 
continues to decrease, we continue to see an increase in crime. 
The numbers are there to prove that this is already happening.
    Additionally, assaults on police officers have likewise 
increased. The level of violence is now bleeding into areas 
where it has never been seen before. One week ago, I received 
the now infamous 3 a.m. phone call with the news of a triple 
homicide that had occurred in Lafourche Parish, a residential 
bedroom community. Three individuals, who themselves had been 
arrested in the past by the Lafourche Parish 
Multijurisdictional Drug Task Force, were ambushed as they sat 
in a parked vehicle. More than 20 rounds from an AK-47 assault 
rifle were pumped into the late-model Mustang, and the 
occupants had no chance to escape from their death chamber.
    The cuts to Byrne/JAG could not come at a worst time. Given 
the fact that hundreds of potentially violent federally 
convicted drug dealers are being released from prison pursuant 
to mandates of the U.S. Sentencing Commission, these offenders 
will soon flood our towns, cities, and counties ready to 
reestablish their turf.
    Some have said that the problems created by street corner 
drug dealers are limited in scope and, therefore, it is a State 
and local issue with no role for the Federal Government. The 
fallacy of this proposition lies in the fact that the success 
of multijurisdictional task forces in reducing the 
proliferation of backyard meth labs has resulted in the 
creation of super meth labs in Mexico and the importation of 
meth into the United States.
    Also, the World Wide Web presents endless opportunities for 
drugs and illegal substances to be brought into the country 
from around the world, and highway interdiction units have 
demonstrated the vast nature of networking of interstate 
trafficking.
    In addition to restoring the fiscal year 2008 funding for 
Byrne/JAG, I urge Congress to reauthorize funding for Byrne/JAG 
through fiscal year 2012 in the amount of $1.1 billion per 
year, which will enable existing task forces to continue 
operations and the opportunity for new task forces to start up.
    I would like to thank Congressman Henry Johnson of Georgia 
and the 53 co-sponsors for supporting Byrne/JAG and introducing 
H.R. 3546.
    Finally, I would like to propose the Committee give serious 
consideration to increasing Byrne/JAG allocations to rural 
communities, which, by my earlier example, now face big city 
problems. Currently, funding is allocated to each area on the 
national crime violent reports. Although rural areas may not 
have violent crime rates competitive with suburban and urban 
areas, this does not mean that rural areas do not have 
significant crime problems.
    In closing, thank you for the opportunity to come before 
you this morning and express our concerns. I hope I have 
conveyed to you the dire situation that sheriffs are faced with 
across the country and how critical the Byrne/JAG Program is to 
us and our local and State counterparts.
    [The prepared statement of Mr. Webre follows:]

                   Prepared Statement of Craig Webre

    Good morning Mr. Chairman and members of the Committee. My name is 
Craig Webre and I currently serve as the Sheriff of Lafourche Parish, 
Louisiana and President of the National Sheriffs' Association. The 
National Sheriffs' Association represents over 3,000 elected sheriffs 
across the country and more than 22,000 law enforcement professionals, 
making us one of the largest law enforcement associations in the 
Nation. I am pleased to have this opportunity to appear before you 
today to discuss the necessity for the Byrne JAG program among state 
and local law enforcement agencies, as well as the urgent need to 
reauthorize funding levels through Fiscal Year 2012.
    As you may be aware, sheriffs play a unique role in our criminal 
justice system. In addition to providing traditional policing within 
their respective counties, sheriffs also manage local jails and are 
responsible for providing court security. Over 99% of the sheriffs are 
elected and, oftentimes, serve as the chief law enforcement officer of 
their counties. Consequently, we have a keen understanding of the needs 
of our criminal justice system, as well as of the local communities we 
serve.
    In the early 1990's, Congress joined in a partnership with local 
law enforcement to provide assistance with hiring new officers and 
combating crime throughout the Nation. Unfortunately, in recent years, 
the federal government has strayed from its commitment to local and 
State law enforcement, particularly in regards to Byrne JAG.
    Byrne JAG is named in memory of Officer Edward Byrne, a rookie with 
the New York City Police Department. On February 26, 1988, Officer 
Byrne was protecting the home of a witness in a narcotics case, when he 
was shot five times in the head at point-blank range by drug dealers. 
Officer Byrne was only 22 years old when he was murdered.
    The purpose of Byrne JAG has been simple: to provide assistance to 
state and local law enforcement to combat crime in their communities. 
Primarily, this task has been accomplished through the establishment of 
multi-jurisdictional drug and gang task forces. Additionally, Byrne JAG 
funding has been used for community crime prevention programs, 
substance abuse treatment programs, prosecutorial initiatives, and many 
other local crime control and prevention programs. Currently, Byrne JAG 
is the only formula grant program that is available to local law 
enforcement.
    Sheriffs use Byrne JAG funding in a multitude of ways. While the 
primary usage is to operate the multi-jurisdictional drug task forces, 
sheriffs also use Byrne JAG to purchase vital law enforcement 
technology and equipment; to provide crime prevention education to 
their communities; and to institute School Resource Officers in schools 
throughout their communities. Byrne JAG has enabled state and local law 
enforcement to fund many prevention and intervention programs which, 
while authorized by Congress, have not received specific program 
funding.
    Over the last several years, state and local law enforcement has 
seen a significant and dramatic decrease in funding for Byrne JAG, from 
nearly $900 million in FY'03 to $170 million in FY'08. The funding cut 
in the FY'08 Omnibus Bill slashing Byrne JAG funding from $520 million 
in FY'07 to the current level of $170 million, a 67% decrease--
represents the single, most significant adverse action leveled against 
crime fighting initiatives in the last 25 years.
    The virtual elimination of funding for FY'08 will result in as many 
as half of the long-standing multi-jurisdictional drug task forces to 
shut down as of July 1st of this year. The remainder of the task forces 
will face significantly reduced operational effectiveness. The 
foreseeable ramifications of these actions will result in gangs and 
drug dealers and other violent criminals regaining a stronghold in the 
area of narcotics trafficking and distribution. The inability to 
sustain multi-jurisdictional task forces will lead to the loss of 
veteran members who have institutional knowledge, the loss of 
intelligence databases, and the loss of a network of informants.
    Once these vital tools are gone, the doors locked and the lights 
turned off, it will take years to reestablish and recreate them. The 
loss of 365 days of funding will create problems that will last for 
years. In that period of time, the dismantling of proven, productive 
and successful crime fighting systems will put us at a tremendous 
disadvantage while giving people in the drug trafficking business the 
opportunity to do even more harm in our communities.
    The drastic reduction of Byrne JAG, as well as other essential law 
enforcement funding such as the COPS Programs, places an insurmountable 
burden upon state and local law enforcement--to fight the rise in crime 
with limited resources. If funding for law enforcement continues to 
decrease, this country can only expect to see an increase in crime.
    The numbers are there to prove that is already happening. We are 
starting to see an increase in all categories of violent crime. After 
decades of reductions in violent crime statistics, we can see a direct 
correlation between funding cuts and the rise in violence. Moreover, 
assaults on police officers have likewise increased (See attachments, 
Exhibits 1, 2, 3).
    The level of violence is now bleeding into areas where we have 
never seen it before. One week ago, I received that now infamous ``3 AM 
phone call,'' with the news of a triple homicide that had occurred in 
my Parish, in a residential, bedroom community. I have provided photos 
depicting the graphic and violent nature of their deaths which is 
becoming increasingly common among individuals in the drug trade.
    Three individuals, who themselves had been arrested in the past by 
the Lafourche Parish Multi-Jurisdictional Task Force, were ambushed as 
they sat in a parked vehicle. The late model Mustang, belonging to the 
sister of one of the victims, became the final resting place for 
Chauncey Adams, Brad Bourda and Terry Hester. More than twenty rounds 
from an AK-47 assault rifle were pumped into the vehicle--through the 
windows. Adams, Bourda and Hester had no chance to escape from their 
death chamber. When the shooting stopped, the interior of the vehicle 
is best described as something straight out of the ``Texas Chainsaw 
Massacre''--blood and brain matter plastered throughout.
    It is often said that drug addicts and drug distributors do not 
live long enough to collect old age pensions because if the drugs don't 
kill you, the lifestyle does. One of the suspects in the cold-blooded 
case I have just described told my detectives just that, quoting here 
``It's either we gonna kill them, or they gonna kill us.'' Again, the 
potential for violence is ramping up, as Washington considers taking 
away the money to combat the problem.
    In the course of the past fifty-years, our criminal justice 
system's response to combating drugs has evolved from one of primarily 
deep undercover narcotics enforcement operations resulting in long, 
harsh jail sentences to one of a comprehensive strategy encompassing 
prevention, intervention, enforcement and treatment. In particular, we 
have seen the development of successful drug treatment courts, many of 
which are funded with Byrne JAG dollars.
    The average cost of treating an addict through drug court is $2,000 
per year (versus an average of $23,000 for incarceration, according to 
the Office of National Drug Court Policy) and provides real hope for 
that person while aiding them to become a law abiding, contributing 
member of society. Effective, aggressive enforcement of our drug laws 
is a necessary prerequisite for the success and optimism of drug 
courts. Hence, if task forces are reduced or disappear completely, you 
will see a companion reduction in the number of people availing 
themselves of the assistance drug courts provide in helping addicts 
turn their lives around.
    While there is never a good time to reduce law enforcement funding, 
the cuts to Byrne JAG could not come at a worse time, given the fact 
that hundreds of potentially violent convicted drug dealers are being 
released from prison pursuant to mandates of the U.S. Sentencing 
Commission. These offenders represent federally convicted drug dealers 
from the most violent sector of drug offenders and will soon flood our 
towns, cities and counties ready to reestablish their turf. Moreover, 
if, as some suspect we are on the brink of a recession, you can rest 
assured that criminals and drug law offenders will not be taking a 
recess. The problem will only get worse.
    Some have said problems created by the street corner drug dealers 
are limited in scope and therefore, it is a state and local issue with 
no role for the Federal government. It is true the impact is felt on a 
local level, but the source has a national nexus in a number of ways. 
In part, the success of multi-jurisdictional task forces in reducing 
the proliferation of backyard meth labs has resulted in the creation of 
super meth labs in other countries, particularly in Mexico. In turn we 
are seeing a resulting importation of meth into our country.
    Second, the World Wide Web presents another opportunity for drugs 
and illegal substances to be transported from state to state and to be 
brought into the country from around the world for ultimate 
distribution again into our towns, cities and counties. Highway 
interdiction units have demonstrated the vast nature of the network of 
interstate trafficking and transportation which again clearly 
implicates the need for Federal jurisdiction and dollars.
    In addition to restoring the FY'08 funding for Byrne JAG, I urge 
Congress to reauthorize funding for Byrne JAG through Fiscal Year 2012, 
in the amount of nearly $1.1 billion. The reauthorization of Byrne JAG 
at $1.1 billion will enable existing task forces to continue 
operations, and the opportunity for new task forces to start up. I 
would like to thank Congressman Henry Johnson of Georgia, as well as 
the 53 cosponsors, for supporting Byrne JAG and for introducing H.R. 
3546. However, it is critical Congress understands that while 
reauthorization of Byrne JAG is important, Congress must also 
appropriate funding for Byrne JAG at a more significant level than it 
has been allocated at in recent years.
    Finally, I would like to propose the Committee give serious 
consideration to increasing Byrne JAG allocations to rural communities 
which, by my earlier example, now face ``big city'' problems. 
Currently, funding is allocated to each area based on national violent 
crime reports. Although rural areas may not have a violent crime rate 
competitive with suburban and urban areas, this does not mean that 
rural areas do not have significant crime problems nor does it mean 
that they do not rely on the funding. In fact, rural areas may rely on 
funding from Byrne JAG more than larger areas, as it is the only source 
of funding which enables the rural area to combat crime.
    I want to thank you for the opportunity to come before you and 
express my concerns. I hope I have conveyed to you the dire situation 
that sheriffs are faced with across the country and how critical the 
Byrne JAG program is to us. The strain caused by limited funds for 
Byrne JAG in the face of increasing violence and drug abuse in our 
communities should be a major inducement for government and law 
enforcement alike to share the responsibility for keeping our 
communities safe.

                               __________

                              ATTACHMENTS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Mr. Webre.
    Director Rueker?

    TESTIMONY OF RONALD C. RUEKER, PRESIDENT, INTERNATIONAL 
        ASSOCIATION OF CHIEFS OF POLICE, ALEXANDRIA, VA

    Mr. Rueker. Good morning. Good morning, Chairman Scott, 
Ranking Member Gohmert, and Members of the Subcommittee.
    My name is Ronald Rueker, and I am the director of public 
safety for the City of Sherwood, Oregon. I also serve as 
president of the International Association of Chiefs of Police.
    I appreciate the opportunity to be here with my 
distinguished colleagues today to discuss this critical issue 
facing State, tribal, and local law enforcement agencies. In 
the United States, there are more than 18,000 law enforcement 
agencies and well over 700,000 officers who patrol our State 
highways and the streets of our communities each and every day.
    During the last 15 years, these officers and the law 
enforcement agencies they serve have made tremendous strides in 
reducing the level of crime and violence in our communities. 
This has been accomplished in part because these officers have 
an intimate knowledge of their communities and because they 
have developed close working relationships with the citizens 
they serve.
    Yet, despite the best efforts of our Nation's law 
enforcement officers, the disturbing truth is that each year in 
the United States, well over a million of our fellow citizens 
are victims of violent crime. Unfortunately, in the last 2 
years, we have seen a steady increase in the rate of violent 
crime in the United States in some communities, and while there 
are many different theories as to why violent crime is 
increasing in these communities after years of often double-
digit declines, there is one fact that all can agree upon: no 
place is immune.
    What were once considered problems of our major 
metropolitan areas--drug addiction and distribution, violent 
crime, gangs, and poverty--have migrated to suburban and even 
rural locations. According to the FBI Uniform Crime Report, 
cities with populations from 25,000 to 50,000 are seeing the 
fastest-growing incidents, and from 2004 through 2006, the 
violent crime rate in these communities rose by more than 7 
percent. In towns with populations from 10,000 to 25,000, the 
homicide rate went up by 9.4 percent over the same 2-year 
period.
    It is telling that this increase in crime in America, 
violent and otherwise, corresponds to the substantial decline 
in funding for local and State law enforcement from Federal 
Government assistance programs. In the years since 2003, the 
very programs that allowed State, tribal, and local law 
enforcement to combat crime in our communities, such as the 
Edward Byrne Memorial Justice Assistance Grant Program, have 
suffered significant budget reductions, and, as has been 
mentioned, in the fiscal year 2008 Omnibus, Byrne and JAG was 
funded at just $170 million, a decrease of 68 percent.
    Additionally, the Administration's fiscal year 2009 budget 
proposal calls for the complete elimination of the Byrne 
program. Regrettably, these cuts only continue a trend that 
began in fiscal year 2003 of significant funding reductions for 
law enforcement assistance funding at the Department of 
Justice. In fact, when compared to the fiscal year 2002 funding 
level of $3.8 billion, the Administration's fiscal year 2009 
proposal represents a reduction of more than $3.4 billion, or 
90 percent.
    I will not go into a complete analysis of the budget, but 
if it is your pleasure, Mr. Chairman, I would like to submit a 
copy of the IACP's Budget Analysis for the record.
    Mr. Scott. Without objection, so ordered.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Rueker. Thank you.
    I would, however, like to express the IACP's profound 
concern over the impact that these cuts have had on the Byrne 
and JAG. It is the IACP's belief that the Byrne and JAG Program 
played an integral role in our ability to combat crime and 
protect our communities.
    For example, as is mentioned in my written statement, the 
value of Byrne and JAG Program was aptly demonstrated earlier 
this year when 41 State drug enforcement agencies participated 
in Operation Byrne Blitz, a 1-day enforcement effort which 
resulted in the arrest of 4,220 individuals and seizure of vast 
quantities of illicit narcotics.
    This successful effort was made possible by the Byrne and 
JAG funds provided to State, tribal, and local law enforcement 
agencies with the necessary resources to partner successfully. 
Unfortunately, if the Byrne and JAG Program is severely reduced 
or eliminated, the effectiveness of proven and successful law 
enforcement in crime reduction programs will suffer.
    For example, in my home State of Oregon, if the Byrne and 
JAG funds continue to decline as they have in years past, these 
programs will be severely reduced or eliminated: all six of our 
multijurisdictional drug task forces that cover all of Oregon's 
36 counties--these task forces target those engaged in the 
production, distribution, and the use of methamphetamine, 
heroin, marijuana, crack cocaine, and ecstasy; four of our most 
successful domestic and family violence prevention programs; 
two alcohol and drug treatment programs; 11 drug court 
programs; four juvenile justice prevention programs.
    In addition, some agencies in the U.S. will no longer be 
able to afford sobriety checkpoint equipment, portable radios, 
less-than-lethal technologies, and training materials and 
equipment. Simply stated, reductions to the Byrne and JAG 
Program have the potential to weaken severely the capabilities 
of law enforcement agencies nationwide, reducing their ability 
to mount aggressive and effective crime prevention and crime 
reduction programs. Sadly, this will undoubtedly lead to more 
crime and violence in our hometowns.
    Thank you for your time, Mr. Chairman. I would be pleased 
to answer any questions you or the Members of the Subcommittee 
may have.
    [The prepared statement of Mr. Rueker follows:]

                Prepared Statement of Ronald C. Ruecker

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Mr. Rueker.
    Mr. Brooks?

  TESTIMONY OF RONALD E. BROOKS, PRESIDENT, NATIONAL NARCOTIC 
       OFFICERS' ASSOCIATION COALITION, SAN FRANCISCO, CA

    Mr. Brooks. Chairman Scott, Judge Gohmert, Members of the 
Subcommittee, I appreciate the opportunity to discuss the 
importance of H,R. 3546, and I want to thank Mr. Johnson as the 
author and for his leadership on this issue.
    I also want to thank the Subcommittee for focusing 
attention on the Byrne/JAG formula program. It is the single 
most important component for sustaining multijurisdictional 
drug enforcement in America. The Byrne formula program provides 
only a small amount of the overall funding that is dedicated to 
State and local drug enforcement, but its role is pivotal in 
allowing us to fight the scourge of drugs and gangs in our 
communities.
    Funding for Byrne provides the necessary incentive for 
multijurisdictional coordination in combating the drug 
epidemic. It is this coordination that has improved the 
effectiveness of drug enforcement and has helped reduce drug 
abuse, meth labs, and violent crime, and it is the reason that 
97 percent of all drug arrests in America are made by State and 
local cops.
    Drug traffickers are not bound by borders of cities, 
States, or nations. Criminal mobility is why 
multijurisdictional task forces are critical in battling the 
threat to our security. Multijurisdictional task forces help 
reduce the impact of drugs and firearm trafficking, fight gangs 
and organized crime in America's community by leveraging 
information and resources to provide a real-time advantage for 
law enforcement. Thanks to Byrne-funded task forces, drug 
investigators are co-located and working cooperatively in 
cities and towns and rural communities throughout America.
    Recent proposals to reduce or eliminate the Byrne/JAG 
program are reckless and disturbing. Drug enforcement was dealt 
a devastating blow when the original Byrne program and local 
law enforcement block grants were consolidated into the Byrne 
Justice Assistance Grant with a significant reduction in 
funding. When the Byrne/JAG Program was reduced in the recent 
Omnibus from $520 million to just $170 million, a cut of almost 
two-thirds, my colleagues across the Nation were stunned. If 
these cuts remain intact, hundreds of multi-jurisdictional drug 
task forces will be forced to close.
    During my 34-year career, I have seen more drug-caused 
death and devastation than I care to think about. I have pulled 
too many children from dens of neglect. I have seen too many 
who have died from drug overdose or the violent crime that is 
always present when drugs are near.
    On 9/11, 3,000 Americans were murdered by terrorists from 
foreign lands. The intensity and sheer evil of that attack was 
a wake-up call to the world. Ironically, the events of 9/11 
overshadowed the chemical attacks that occur each day in cities 
and towns in the form of illegal drug trafficking. Drug 
overdoses kill more than 30,000 Americans each year, and the 
impact on our economy is estimated to be more than $180 billion 
annually.
    But those stark numbers do not paint the complete picture. 
The unrelenting attack by international cartels, gangs, meth 
cookers, and neighborhood drug dealers is a tragedy that 
touches every family. How can we quantify the lives ruined, 
opportunities lost, and heartache caused by drug abuse?
    Since 9/11, no child in American has been injured or killed 
in a terrorist attack, but most children will be asked to try 
illegal drugs. Each child will struggle with the choice that 
has the real potential to ruin their life, a choice that 
wrongly made will cause them to sacrifice health, mental state, 
education, and family.
    Serving as a narcotics officer is not only my job; it is a 
moral responsibility. In my 34 years, no program has enabled me 
to carry out that responsibility more effectively than Byrne. 
If Congress does not embrace H.R. 3546 and if it does not 
restore funding for Byrne/JAG in the fiscal year 2009 
appropriations, then I and my colleagues will be prevented from 
doing what we know works and, more importantly, what we know is 
right.
    Because of the last-minute cuts to Byrne/JAG in the 
Consolidated Appropriations Act, a diverse group of law 
enforcement treatment, prevention, corrections, and victims' 
rights groups, labor organizations, and grassroots groups have 
come together in an effort to restore funding for Byrne/JAG. In 
recent letters submitted to the House leadership, 30 of those 
groups representing almost a million combined members of public 
servants and community activists requested funding to offset 
the severe cuts to Byrne in fiscal year 2008.
    In addition to those associations, a bipartisan group of 
218 Members of the House signed a letter sent to leadership and 
appropriators requesting $430 million in emergency funding for 
Byrne/JAG. Additionally, a bipartisan group of 56 senators 
signed a similar letter.
    This broad show of support for a Federal program is 
extremely rare, and it shows how deep the support for this 
program is. I would like to submit those letters for the 
record.
    Mr. Scott. Without objection, so ordered.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Brooks. On behalf of America's narcotic officers, I 
urge the Members of this Subcommittee who have been leaders in 
protecting programs that fight back against drug traffickers 
and gang violence to do everything in your power to reauthorize 
Byrne/JAG and to assist us in ensuring that it is appropriated 
at adequate levels.
    Mr. Chairman, Judge Gohmert, and Mr. Johnson, I want to 
thank you for inviting me to share the views of America's 
narcotic officers, the 69,000 narcotic officers that I 
represent, and we certainly appreciate your service to America.
    Thank you.
    [The prepared statement of Mr. Brooks follows:]

                 Prepared Statement of Ronald E. Brooks

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you. Thank you, Mr. Brooks.
    We will now have questions for the panel, and I will 
recognize myself for 5 minutes, beginning with Mr. Herraiz.
    You indicated that the Administration is recommending the 
combination of several programs into just four programs? Did I 
understand you right?
    Mr. Herraiz. That is correct, Mr. Chairman.
    Mr. Scott. Do you need legislation to do that?
    Mr. Herraiz. It is listed under the appropriation. There 
has been no legislation introduced.
    Mr. Scott. And would there be as much money appropriated in 
the combined as it is in the 70 different programs you are 
consolidating or----
    Mr. Herraiz. The programs----
    Mr. Scott [continuing]. Do you propose to cut the funding 
overall?
    Mr. Herraiz. Mr. Chairman, the programs themselves that are 
currently funded under the Byrne/JAG Program would still be 
eligible for funding under this initiative. The total dollar 
figure is represented at $200 million for the Byrne Public 
Safety Initiative.
    Mr. Scott. And what is the total appropriation in the four 
that would be left compared to the 70 that you started off 
with?
    Mr. Herraiz. Mr. Chairman, I am not sure of the figure for 
the Juvenile Justice and Child Safety category and the Violence 
Against Women. I am familiar with the Violent Crime Partnership 
Initiative which is $200 million and the Byrne Public Safety 
which is $200 million. Those are the two pieces that fall 
within the Bureau of Justice Assistance. That would be a total 
of $400 million.
    Mr. Scott. Okay. I was a State legislator during the Reagan 
administration, and frequently you would have a lot of programs 
consolidated, and each of the programs would be told, ``There 
is plenty of money for your program,'' but the total amount of 
money was cut. So we want to make sure that--if you are 
cutting, we would like to know exactly where you propose those 
cuts, or if there is more money, we would like to know that 
too.
    Now which of the grant programs are discretionary and which 
are formula based?
    Mr. Herraiz. In the President's 2009 recommended budget, 
all of the programs are identified as discretionary, 
competitive, flexible grant programs.
    Mr. Scott. And in the awarding of grants, does politics, 
favoritism, or religion trump evidenced-based approaches or 
not?
    Mr. Herraiz. Mr. Chairman, we operate, certainly at the 
Bureau of Justice Assistance, a very open, competitive, and 
flexible program, as we have administered the funds that you 
allowed us last year under the Byrne discretionary program as 
well.
    Mr. Scott. Is that, no, it does not---- [Laughter.]
    Mr. Herraiz. Mr. Chairman, there is no politics in the 
decision-making within the Bureau of Justice Assistance for 
those grants.
    Mr. Scott. And religion does not play a part?
    Mr. Herraiz. No, sir, it does not.
    Mr. Scott. And favoritism?
    Mr. Herraiz. Mr. Chairman, no, sir.
    Mr. Scott. Thank you.
    Mr. McDaniel, you indicated that Byrne/JAG funding is an 
effective model. What is effective about that model?
    Mr. McDaniel. Well, Mr. Chairman, you will find that you 
will have a prosecuting attorney who is dedicated to a task 
force and you will have multijurisdictional resources dedicated 
to that model.
    You talk about your experience in the State legislature, 
and I remember mine as well. But, earlier than that, I was a 
police officer, and it would be very difficult to dedicate 
myself to investigating, for instance, a crack house where we 
knew that there was a great deal of trafficking going out of 
it, when I had all these other responsibilities to attend to, 
the radio would go off. Those are real-world impediments to 
true narcotics investigation.
    When you have a dedicated task force, that does not happen, 
and they are able to pool their resources, work together as a 
team, and they should be accountable to a prosecutor who is 
accountable in Arkansas to the people. They are elected, and 
they are deputies.
    Mr. Scott. Well, I guess the same question of a number of 
people. Why can't that be done without Federal funds?
    Mr. McDaniel. Simply the resources are not available. They 
are strapped. I had committed when I was running for attorney 
general in Arkansas to doing just what I am doing today, which 
is to come and encourage Congress to renew these funds. If we 
do not have them renewed, I think that it is of paramount 
importance that we try to do as much as we can on the State 
level to fill the void because the void will be filled by those 
who want to do harm in our communities. But the truth is the 
States are hurting as well.
    Mr. Scott. And how can we make sure that there is effective 
oversight for these multijurisdictional task forces, and who is 
kind of in charge?
    Mr. McDaniel. I think we have to follow the money. In 
Arkansas, I sit on a council that is responsible or reviewing 
the applications from each of the drug task forces, and then 
we, of course, are responsible to the Justice Department, and I 
think that increased oversight and accountability at all levels 
would be important, and I certainly would support that. I just 
agree with Congressman Johnson that withdrawing funding would 
be the wrong course.
    Mr. Scott. Well, who should do the oversight?
    Mr. McDaniel. I think we should do it at each level and 
oversee, frankly, one another. I think that our drug council in 
Arkansas has a responsibility not just to review the 
applications made by these drug task forces and other entities 
that seek the money. I think we should look over what is their 
structure like, how are they screening officers to be a part of 
the program, not just how are they spending it.
    We have bean counters to make sure that money is not being 
stolen, but how are they actually implementing their programs? 
Are they working with State and Federal law enforcement, or are 
they simply targeting small-time petty operators?
    Mr. Scott. And who should do that oversight?
    Mr. McDaniel. In Arkansas, I think, again, it should be the 
elected prosecutor who is answerable directly to the people, 
who has to dedicate one deputy to a multijurisdictional task 
force. I think it should be the drug council on which the 
attorney general's office, the State police, the drug czar, and 
the governor's office, and others oversee the applications, and 
I think the Department of Justice.
    Mr. Scott. If everybody is doing oversight, sometimes no 
one does the oversight. Sometimes it is a little better if you 
designate one person, but we will follow through on that.
    Judge Gohmert?
    Mr. Gohmert. Thank you, Chairman.
    And thank each of you for your testimony. It is helpful.
    Sometimes in some of these Federal programs, we set up a 
formula whereby the offices that are doing the poorest job, 
have the poorest workers in them, show that they should get 
more money than the most efficient, most effective offices, and 
I like it when we can avoid that happening so that if there is 
an office that is efficient, that does need help, we get them 
money.
    So let me ask Mr. Herraiz is there some way to avoid that 
with the Byrne/JAG Program?
    Mr. Herraiz. Mr. Chairman, Congressman Gohmert, we are 
excited about the opportunity we had with the $75 million this 
year for the targeting violent crime task forces that we 
established. We took in developing that initiative all the best 
that we saw with the Byrne/JAG program over the years.
    I have had the opportunity to also administer the funds at 
the State level here in Washington and actually being a Byrne/
JAG recipient at the local level. So a lot of experience and 
partnership amongst various agencies here on this panel as well 
went into the ideas behind the development of the initiative--
focusing on ideas of intelligence-led policing, trying to look 
at data-driven models so that we are targeting money in the 
community where the greatest crime need is.
    We have various communities across the country, and 
Attorney General Gonzales put out an 18-city tour. He went to 
various communities to look at crime rates where they were up 
or down, and what were some of the causes, what were locals 
really seeing, because really for us to prescribe a program 
here in Washington that does not have the input of the locals 
addressing their specific crime need would really be less than 
worthy.
    So, in indentifying those needs and those issues, one of 
the things we found is that the best way to affect change in 
public safety in that community is to really allow a program to 
address local needs and concerns and to be targeted for that 
need.
    Over 106 communities are receiving those targeting violent 
crime task force partnership initiatives where they decide 
themselves what their crime issue is and what they want to 
address. Preliminary results for that program so far show that 
in just 2 months--because the program just kicked off in 
January--we see over 1,700 felony arrests; gang member arrests 
for violent felonies, 454; heroin seized in kilograms, 127; 
legal firearms seized, 1,600; and the stats go on.
    We have built in new performance measures with this 
initiative to take again what we have not seen in success of 
other traditional programs that we have tried to address in 
crime fighting to develop this initiative.
    Mr. Gohmert. Well, it sounds good. And, you know, those 
obviously that are familiar with the program know it has done a 
lot of good.
    But, apparently, as the Chairman pointed out, there is a 
bad egg every now and then that uses things inappropriately. It 
is because they are human, and one thing we know is, no matter 
how wonderful you are, if there is not adequate accountability, 
you are given temptations you should not have to face.
    But I do appreciate all the testimony. I would just like to 
submit to each of you--I mean, you each represent not only your 
own office, but most of you represent many other people as 
well--you do not have to wait until you are invited to come 
testify to give us feedback on something. If you are unhappy 
about something, then just bombard Chairman Scott's office with 
messages. [Laughter.]
    Seriously, though, I mean, if there is a problem on 
legislation, oftentimes, you know about it or hear about it 
before we do even. There was an example in the last Congress. I 
had a court security bill, and I was asked by the 
Administration would we mind sticking in a provision that would 
allow the DOJ or the attorney general to just select U.S. 
marshals instead of the normal presidential appointment. I 
thought, ``Well, if the White House wants it, if they do not 
mind giving up that, if that is going to be easier, fine.''
    I did not realize, apparently, the National Sheriffs got 
all upset. There were e-mails and wild calls. Somebody called 
my local sheriff and said, ``Do you know this guy?'' He said, 
``Sure.'' So, anyway, I get the message. It turns out what they 
were doing is they were going to end any chance any sheriff or 
chief of police or DA, anybody, ever had of being a U.S. 
marshal because you would have to be within the civil service 
area already.
    Well, as soon as I heard that was the deal, I pulled it out 
of the bill, I am not sticking that in there, and I told my 
sheriff, ``What the hell? The president of the National 
Sheriffs they do not have to send all this stuff all over the 
country. Just give me a call. Let me know if there is a 
problem. We want to work with them,'' you know.
    And so I am giving that anecdotally to tell you most of the 
people in Congress--and I know everybody up here now--we do not 
want to make your life more miserable. We want to try to work 
together to make things happen. So, when you hear or you learn 
that something is a problem, just let us know as we do want to 
work with you.
    And, if I could just make this final comment, Chairman, bad 
things may happen, people may use some money inappropriately, 
and I hate to put any more pressure than this Mr. Herraiz, but 
if we get embarrassed, it is just the way it is. We are going 
to look for somebody to embarrass. And guess who that is 
probably going to be? So thank you for being here.
    Mr. Scott. Thank you.
    The gentleman from Georgia, the sponsor of the bill, Mr. 
Johnson?
    Mr. Johnson. Thank you, Mr. Chairman.
    And from the outset, I would like to say that there is not 
many other occupations that are more worthy than going into law 
enforcement, and law enforcement helps to keep our safe 
streets, which is something that all citizens demand, but, 
unfortunately, we do not really like to pay for it.
    But I will say that being a locally elected official before 
I came to Congress, I was aware as a county commissioner of the 
strains on our budget and how we would have to make choices in 
terms of how much to pay our police officers, how much goes to 
law enforcement, and with declining resources to this, it makes 
it very difficult.
    Just this past January, we had two police officers in 
DeKalb County who were shot down in the line of their work, but 
they were working extra hours security because the county is 
not paying them such that they would be able to go home and 
enjoy, you know, some time with their family. They had to work 
20, 30 hours extra per week just to make ends meet, and so it 
is a really difficult situation to be a law enforcement 
officer, and then you may never be able to come back home 
again.
    And so with this very worthy and honorable profession that 
we are not paying them enough to do, it makes it important that 
there is funding from the Federal level to help streamline and 
make more efficient the efforts of our local law enforcement 
officials. I want to thank all of the law enforcement officials 
for what you have done to help keep our streets safe.
    And I want to ask Mr. Herraiz, given the difficulties of 
State and local governments to fund law enforcement operations, 
in your testimony, you point to a nearly 60 percent decline in 
crime from 1993 to 2005, and you credit the Byrne/JAG grants 
for at least some of that success, yet you also endorse 
slashing the program which would essentially hurt those 
efforts.
    How do you reconcile those two positions, and also would 
you answer for me how will these competitive grants that you 
are advocating for be awarded? Will they be awarded from a 
local perspective or from a national perspective?
    Mr. Herraiz. Mr. Chairman, Congressman Johnson, I 
appreciate the opportunity to answer that. As it relates to the 
Byrne/JAG Program in particular and the efforts that we have 
put forth to address those issues of violent crime, over the 
years, we have seen--and I have been in this position for a 
little over 4 years now. Before, as I mentioned, I was at the 
State level and then previously at the local level, so I have 
seen the different facets of Byrne.
    And I will readily admit, in my tenure on the other side, I 
oftentimes did not submit the best reports to communicate the 
value of the criminal justice efforts in particularly the 
Byrne/JAG Program. When I came to Washington, I clearly saw 
within my agency that the information that we were getting was 
not as strong as it could be to really tell a story of the 
value of resources, and without that, many of the issues that 
you have addressed here today surfaced.
    We recognized that we needed a multifaceted approach. We 
recognized that we needed accountability. So we engaged 
discussion with many of the partners here at this table to 
really help define what it is that we need, how do we 
communicate the real value of these initiatives. We recognized 
that we had----
    Mr. Johnson. Well----
    Mr. Herraiz. Yes, sir?
    Mr. Johnson. Yes, I must interrupt you, and I want to focus 
you on that particular question. How will this new structure 
and the decreased funding that you are proposing help to stem 
the tide of crime which is growing in our communities, which 
will continue to accelerate, given the deteriorating economic 
condition which the country faces, drug trafficking, crimes of 
violence, property crime is going to go up as a result of 
people being strapped for funding, if you will? So I am talking 
about on a personal level. So how will your new formula enhance 
the ability to fight the crime that is foreseeable?
    Mr. Herraiz. Mr. Chairman, Congressman Johnson, what we 
have seen in the crime statistics, what it is showing us is, in 
particular if you look at the violent crimes reported in 2005 
and 2006, 16 cities across the Nation account for over half of 
those violent crime increases, which is a huge percentage.
    The discussion we have as it relates to a formula grant is 
by merely sprinkling the resources throughout communities--
although as you have heard here today and you will hear from 
other jurisdictions, your experience at the county level as 
well, those resources are valuable because they help with the 
necessary dollars in the economy at that local level.
    However, when we look at the crime picture itself, the 
department has tried to approach its efforts and whether it is 
the FBI Safe Streets Initiative, the U.S. Marshals' Safe 
Surrender Program, the Violent Crime Partnership Task Force 
Initiative, et cetera, our PSN and Anti-Gang Initiative, on 
those communities where you have the largest crime increases.
    Mr. Johnson. Who would make the decision as far as the 
grant awardees? Who would award the money?
    Mr. Herraiz. Yes, sir.
    Mr. Johnson. Would that be done in Washington?
    Mr. Herraiz. Yes, sir. Congressman, what we have is we have 
a targeted approach where the community decides what the 
problem is, and it is competitive. So, yes, through a 
competitive process the decision would be made at the 
Department of Justice.
    Mr. Johnson. Don't you think it would be more effective if 
the local law enforcement agencies are able to determine how 
best to use the funding?
    Mr. Herraiz. Yes, Congressman Johnson, and that is 
specifically built into the program, that they determine 
whether it is they need a drug court, whether they need a 
reentry initiative, whether they need a crime prevention 
program. You are absolutely correct. But----
    Mr. Johnson. But then an official in Washington, D.C., 
would make the determination.
    Mr. Herraiz. Congressman, the official in Washington, D.C., 
would only make the decision based on a competitive external 
peer view grant-making process, not based on someone sitting in 
my chair in my office saying, ``We know what is best for your 
office.'' No, the locals know what is best. They would merely 
have to compete across the country for those resources.
    Mr. Johnson. Thank you, Mr. Chairman.
    Thank you, sir.
    Mr. Scott. Thank you.
    The gentlelady from Wisconsin, Ms. Baldwin?
    Ms. Baldwin. Thank you, Mr. Chairman.
    I want to thank all of our witnesses here today for your 
testimony--I very much appreciate it--and want to quickly echo 
my colleague's sentiments of how critical the Byrne/JAG funding 
is to State and local law enforcement officers and their 
ability to fight crime and assist in the prevention of drug 
use.
    I want to also think Mr. McDaniel for highlighting the 
impact of these proposed cuts in home State of Wisconsin so 
eloquently in your testimony. I was going to go over some of 
those numbers. I will not.
    I do want to probe a little bit further with regard to the 
issue of oversight of the multijurisdictional drug task forces 
because that tends to be one of the areas of criticism we do 
hear, and we need to be able to assure our colleagues as we 
promote greater funding of this program that their concerns are 
unwarranted.
    Just, for example, in Wisconsin, in 2005, the Byrne/JAG 
monies helped fund 26 multijurisdictional drug enforcement task 
forces, providing specialized drug enforcement services to 71 
of Wisconsin's 72 counties. Combined, the task forces reported 
making almost 9,000 arrests for drug offenses stemming from 
incidents involving marijuana, crack and powder cocaine, 
heroin, and other drug offenses, and these collaborative 
multiagency task forces have done a tremendous job in reducing 
the impact of drugs, gangs, and organized crime in our 
communities.
    But as to the oversight issue, it is my understanding that 
there is one lead agency for each multijurisdictional task 
force and an oversight board that meets as necessary. That 
said, I want to just express that I have received anecdotal 
information about problems with oversight in Wisconsin before. 
The anecdotal information that I have heard is particularly 
with regard to State-line multijurisdictional enforcement where 
Illinois-Wisconsin folks were collaborating and not necessarily 
understanding in a traffic stop situation the laws of one 
another's State.
    And so please shed a little bit more light, if you will, on 
Mr. McDaniel and also perhaps, Mr. Herraiz, if you will.
    Mr. McDaniel. Thank you, Congresswoman.
    We have similar questions, as I guess all States do, but 
Texarkana, Arkansas and Texas, have a very unique system where, 
in fact, they have one police department that operates within 
the city on both sides of the State line, having to have a very 
unique charter and compact and understanding of both States' 
laws and multijurisdictional cooperation.
    I did not come today with a model in hand on enhanced 
supervision and accountability. It became very clear to me 
quite some time ago that that was, in fact, needed, and I am 
very open to that, and I believe that the attorneys general of 
this county would be more than willing to cooperate with local 
law enforcement as well as the Department of Justice in coming 
up with the best model possible.
    I think that our primary concern was that, oh, my gosh, we 
are going to see the baby thrown out with the bathwater, and 
that was certainly what we considered to be the wrong course.
    I think that there are a lot of saving graces to the 
program, and we are more than willing--as I have mentioned 
earlier, I think that one thing that I can do and that the 
attorneys general can do is to create new criteria when we 
review more than merely a spreadsheet of finances on whether or 
not we approve funding because, obviously, there are 
clearinghouses for this money on the State level, at least that 
is the way ours is structured, and I would be more than willing 
to consider new and additional criteria, not just for how you 
spend it, but who is spending it, what are you spending it on, 
how are you cooperating with other agencies, how you screen 
your officers, who is responsible in the chain of command if 
there are violations of racial profiling, for instance?
    My office is responsible in Arkansas, as many attorneys 
general are, for overseeing and mandating racial profiling 
criteria for law enforcement agencies, and I have received 
hundreds from all over Arkansas that we are in the process of 
reviewing. We can integrate those things in such a way as to 
make this program more effective, I believe.
    Ms. Baldwin. Mr. Herraiz, do you have any additional 
comments? And I am also hoping--well, my time is out--I might 
squeeze in an additional question about victim witnesses 
programs. But, Mr. Herraiz, do you have anything more on 
oversight?
    Mr. Herraiz. Yes, Congresswoman Baldwin. As far as 
oversight, obviously, all the partners involved, whether it is 
State and local law enforcement, the State--in your case, 
Office of Justice Programs there in the State of Wisconsin, 
David Steingraber--Tulia was a wakeup call for all drug task 
forces, for Ron Brooks' organization and many others, including 
here at BJA in Washington, to try to identify what type of 
proper accountability can we put in place. BJA in particular 
had the Center for Task Force Management Initiative which we 
increased funding for so that we can make sure that we had 
properly trained task forces out there.
    So, in developing a more comprehensive approach to the 
training, working in partnership with all the players, if you 
will, that are at this table, and developing that oversight in 
partnership with the State level by creating a greater 
partnership between the Department of Justice and the State 
administering agency who oversees those local task forces, that 
is going to be the strength of it, and we have gained a lot of 
ground in the last several years in doing that.
    Ms. Baldwin. Thank you.
    Mr. Scott. The gentlelady has an additional question?
    Ms. Baldwin. Thank you very much, Mr. Chairman.
    This one also directed at Mr. McDaniel. Recently, I had the 
chance to tour my home county's victim witness unit in the DA's 
office, and I was incredibly impressed by the work they do. Not 
surprisingly, a majority of our conversation during my tour 
focused on funding cuts for the program.
    So I want to know if in your opinion is simple 
reauthorization of Byrne/JAG at an adequate funding level 
enough to ensure that these victim witness programs can thrive, 
or would you be recommending that we consider a separate stream 
for authorization and funding of the victim witness elements of 
this?
    Mr. McDaniel. I know that each State handles it 
differently, and I only feel competent to address mine, and I 
would be more than happy to provide additional information to 
the Congresswoman or the Subcommittee, if needed. But I think 
that adequate funding for Byrne/JAG is certainly going to be 
critical to a number of things in addition to the 
multijurisdictional task forces, which are certainly high on 
everyone's attention list.
    But we also see everything from school resource officers to 
victim assistance to drug courts. There are a number of very 
worthy and important causes that fall under this large 
umbrella. We have a diverse set of resources available to 
victims and witnesses in Arkansas, local coordinators through 
the prosecuting attorney's office. I myself administer somewhat 
of an insurance benefits program for victims of crimes in 
Arkansas that do not have the ability to pay for some of their 
out-of-pocket expenses.
    I think that all of those are key components in a larger 
puzzle, and the first big step, of course, is to support the 
measure before the Committee.
    [Audio gap.]
    Mr. Scott. I would like to thank our witnesses for their 
testimony today.
    Members may have additional written questions which they 
will submit to you in advance----
    [Audio gap.]
    Mr. McDaniel's constituents, the gentleman from Arkansas, 
Mr. Berry, in the back, a great supporter of this program----
    Thank you very much. Without objection the Subcommittee is 
now adjourned.
    [Whereupon, at 12:17 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
